Audit
Report
        REVISED DOD PROGRESS PAYMENT PRACTICES



Report No. D-2001-188                  September 27, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACO                   Administrative Contracting Officer
ACRN                  Accounting Classification Reference Number
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
MOCAS                 Mechanization of Contract Administration Services
PCO                   Procuring Contracting Officer
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                             1
     Objectives                                                             3

Findings
     A. Implementation of Payment Instruction Requirements                  4
     B. Following Progress Payment Instructions                            12

Appendixes
     A. Audit Process
          Scope and Methodology                                            18
          Management Control Program Review                                20
          Prior Coverage                                                   21
     B. Firm-Fixed-Price Contracts Requiring Payment Instructions by
         DFARS 204.7107                                                    22
     C. Firm-Fixed-Price Contracts With Payment Instructions               23
     D. Report Distribution                                                24

Management Comments
     Under Secretary of Defense (Acquisition, Technology, and Logistics)   27
     Defense Contract Management Agency                                    30
                       Office of the Inspector General, DoD
   Report No. D-2001-188                             September 27, 2001
      (Project No. D2000FJ-0261)

                   Revised DoD Progress Payment Practices

                                   Executive Summary

Introduction. Progress payments are a type of contract financing that DoD routinely
uses to purchase weapon system items that have long production lead-times. Periodic
payments are made to contractors based on either the contractor’s progress or on the
basis of the cost incurred before the item is delivered to DoD. Military Department
weapon system contracts and other contracts with progress payment clauses are
maintained in the Mechanization of Contract Administration Services (MOCAS) system
at the Defense Finance and Accounting Service (DFAS) Columbus. MOCAS
maintained information on 321,946 contracts with obligations of $846 billion as of
January 31, 2001. DFAS Columbus disbursed approximately $9.8 billion in progress
payments on all contracts during FY 2000.

Objectives. The objective of the audit was to determine whether a revised 1998 DoD
progress payment policy was adequately implemented. We expanded our review to
determine whether contracting officers were providing payment instructions required by
Defense Federal Acquisition Regulation Supplement 204.7107. We also reviewed the
management control program as it related to the revised DoD progress payment policy.

Results. The progress payment policy established by the Under Secretary of Defense
(Comptroller) in August 1998 and the Defense Federal Acquisition Regulation
Supplement policy for payment instructions were not adequately implemented for
82 fixed-price contracts with multiple appropriations. Specifically, for six of the nine
contracts that met the Comptroller criteria for payment instructions, Defense Contract
Management Agency administrative contracting officers did not provide payment
instructions to DFAS. In addition, for 76 of 138 contracts that met the Defense Federal
Acquisition Regulation Supplement criteria for payment instructions, contracting
officers did not include the required instructions. As a result, for the 82 fixed-price
contracts with estimated total progress payments of $915.6 million, progress payments
will not be distributed to appropriations based on the best estimates of the specific work
performed under the contract using available information (finding A).

DFAS did not follow the payment instructions on 20 of 63 progress payments on the
7 contracts with payment instructions provided by contracting officers. As a result,
approximately $39.7 million in progress payment disbursements related to the seven
contracts were either inappropriately prorated from multiple appropriations or paid
using a different payment methodology from those specifically directed by contracting
officers. Replacing MOCAS with the Defense Procurement Payment System over the
next several years will not eliminate the problem because manual payments by DFAS
will still be needed to pay according to the instructions provided (finding B).

Summary of Recommendations. We recommend the Under Secretary of Defense
(Acquisition, Technology, and Logistics), direct contracting officers to comply with
Defense Federal Acquisition Regulation Supplement 204.7107 (e)(3) for multiple
appropriation progress payment contracts. We recommend that the Director, Defense
Contract Management Agency, direct administrative contracting officers to provide
required payment instructions to DFAS, monitor DFAS payments when instructions are
provided, and establish a system and performance metric that tracks information on all
progress payments contracts that require instructions. We also recommend the
Director, Defense Contract Management Agency, identify to DFAS, all progress
payment contracts that include payment instructions and verify that the payment
instructions have been entered into MOCAS correctly. We recommend that the
Director, DFAS, verify that contracts with payment instructions for progress payments
are paid based on provided payment instructions

Management Comments. The Director, Defense Procurement agreed to issue
guidance to contracting officers addressing the requirement to include payment
instructions that meet the requirements of Defense Federal Acquisition Regulation
Supplement 204.7107 (e)(3). The Director, Defense Contract Management Agency,
agreed to direct administrative contracting officers to provide required payment
instructions and to verify that the payment instructions have been entered into MOCAS
correctly. The Director, Defense Contract Management Agency, did not agree to
require administrative contracting officers to monitor DFAS payments when
instructions are provided, to establish a system and performance metric that tracks all
progress payment contracts that require instructions, or to identify to DFAS all progress
payment contracts that included payment instructions. The Director, DFAS did not
provide management comments. See the Finding sections of the report for details on
the management comments and the Management Comments section for the complete
text of management comments.

Audit Response. Comments from the Under Secretary of Defense (Acquisition,
Technology, and Logistics) and the Director, Defense Contract Management Agency,
were generally responsive. However, we disagree with the Director, Defense Contract
Management Agency, comments regarding DFAS, establishing a tracking metric, and
identifying contracts with progress payment instructions. While we agree that making
progress payments is a DFAS responsibility, making manual progress payments results
in an increased risk of error and therefore additional monitoring is warranted. The
controls over identifying and monitoring progress payments by Defense Contract
Management Agency were not adequate and additional oversight is needed. Also, the
Administrative Contracting Officers have the best visibility over contracts that may
require progress payment distribution instructions and providing this information to
DFAS with only a minimal amount of effort. We request the Director, Defense
Contract Management Agency and the Director, DFAS, provide comments to the final
report by October 29, 2001.




                                           ii
Background
    DoD routinely awards contracts to Defense contractors for weapon system items
    which have long production lead-times. Frequently, these contracts include
    financing clauses, where the Government makes periodic payments to the
    contractor based on either the contractor’s progress or on the basis of the
    contractor’s cost incurred before the contract item is delivered to the
    Government. It is considered to be more advantageous for the Government to
    finance the contractor than it is for the contractor to obtain commercial
    financing. Progress payments are one type of contract financing the
    Government commonly uses. Generally, contractors may submit progress
    payment requests monthly. The customary progress payment reimbursement
    rate on DoD contracts is 75 percent of the contract amount.

    Progress Payment Administration. Military Department weapon system
    contracts with progress payment clauses are maintained in the Mechanization of
    Contract Administration Services (MOCAS) system at the Defense Finance and
    Accounting Service (DFAS) Columbus. The MOCAS system receives progress
    payment requests electronically from contractors. The system automatically
    processes the payment requests except when there are differences between the
    progress payment request and contract information, or specific payment
    instructions are either included in the contract or otherwise provided to DFAS.
    The MOCAS automatic payment process (proration) allocates progress
    payments to all accounting classification reference numbers (ACRNs) based on a
    weighted average of the contract line item amounts obligated in the contract.
    The ACRN contains accounting information such as the year and type of
    appropriation to be used. When progress payments include special payment
    instructions, the payment must be processed manually.

    Matching Costs with Appropriations. In July 1997, the Under Secretary of
    Defense (Comptroller) expressed concerns that an attempt to match contractor
    costs with the appropriations corresponding to the type of work accomplished
    was frequently not performed. Using appropriations as intended, unless
    otherwise provided by law, is a basic requirement of section 1301(a), title
    31, United States Code. Accordingly, the Under Secretary of Defense
    (Comptroller) directed a change in DoD policy that recognized the MOCAS
    proration methodology may not always fairly represent the work progress
    actually made by the contractor.

    Initial Progress Payment Policy Change. On July 23, 1997, the Under
    Secretary of Defense (Comptroller) issued a memorandum to the Director of
    Defense Procurement, stating that progress payment distributions should be
    based on the best estimation of the specific work being performed under the
    contract using available information rather than the customary proration of
    payments across all available lines of accounting. The policy required that
    paying offices are provided payment distribution instructions on all progress
    payment requests when there were multiple appropriations on the contract.


                                        1
Final Progress Payment Policy. In September 1997, the Director, DFAS,
stated that there were administrative difficulties in implementing the July 23,
1997, policy memorandum on all progress payment contracts. After extensive
discussions with DoD accounting, acquisition, and contract administration
officials, the Under Secretary of Defense (Comptroller) issued a policy
memorandum on August 7, 1998, that directed DoD to allocate progress
payments on all new contracts issued after August 31, 1998, except firm-fixed-
price contracts, on the basis of the best estimates of the specific work being
performed under the contract using available information. Fixed-price (other
than firm-fixed-price) contracts include fixed-price redetermination, fixed-price
with economic price adjustment, and fixed-price incentive contracts.

Implementation of Revised Policy. Defense Contract Management Agency
(DCMA) issued implementing policy for progress payment distribution through
DCMA Directive 1, which is called the “One Book.” The One Book required
that the Administrative Contracting Officer (ACO) provide payment instructions
to DFAS on all fixed-price (other than firm-fixed-price) progress payment
contracts that have multiple appropriations. The payment instructions should
have allowed DFAS personnel to determine the disbursement amounts for each
applicable ACRN funding the contract line item. The DCMA policy did not
permit the ACO to ask the contractor for a breakdown of costs at the ACRN
level unless it was required in the contract. This policy applied to contracts
awarded after October 1, 1998.

Defense Federal Acquisition Regulation Supplement. The Defense Federal
Acquisition Regulation Supplement (DFARS) 204.7107 (e)(3), August 17, 1998,
requires the contracting officer to provide payment instructions to DFAS in
certain instances. The DFARS policy is applicable to all payments on a
contract, including progress payments and does not exclude firm-fixed-price
contracts from the requirement.

Fixed-Price Contracts. Contractors are allotted different types of fixed-price
contracts and their use depends on the service or deliverable item needed by
DoD. There are different types of fixed-price contracts including fixed-price
redetermination, fixed-price with economic price adjustment, fixed-price
incentive, and firm-fixed-price. Firm-fixed-price contracts are the only type of
fixed-price contract that specifically cannot be adjusted for cost reasons. The
remaining types of fixed-price contracts allow the contract price to be adjusted
for reasons such as cost incentive programs or economic reasons.




                                    2
Objectives
     The objective of the audit was to determine whether a revised DoD progress
     payment policy was adequately implemented. We expanded our review to
     determine whether contracting officers were providing payment instructions
     required by Defense Federal Acquisition Regulation Supplement 204.7107 on
     firm-fixed-price progress payment contracts. We also reviewed the management
     control program as it related to the revised DoD progress payment policy. See
     Appendix A for a discussion of the scope, methodology, and management
     control program as they related to the audit objectives.




                                       3
           A. Implementation of Payment
              Instruction Requirements
           The progress payment policy originally established by the Under Secretary
           of Defense (Comptroller) in August 1998 and DFARS 204.7107 (e)(3)
           were not adequately implemented for 82 of 190 contracts (valued at
           $5.9 billion) issued between October 1, 1998, and August 31, 2000.
           Specifically, for six of the nine contracts that met the Comptroller criteria
           for payment instructions, DCMA ACOs did not provide payment
           instructions to DFAS. In addition, for 76 of 138 contracts that met the
           DFARS criteria for payment instructions, contracting officers did not
           include the required instructions. These conditions occurred because:

               •   ACOs did not comply with the DCMA One Book or did not
                   adequately monitor progress payment disbursements by DFAS,
                   and

               •   PCOs were either unaware of the DFARS policy or did not believe
                   that it applied to all disbursements for progress payments.

           As a result, for the 6 fixed-price (other than firm-fixed-price) and
           76 firm-fixed-price contracts with estimated total progress payments of
           $915.6 million, progress payments will not be distributed to appropriations
           based on the best estimates of the specific work being performed under the
           contract using available information.

Progress Payment Disbursement Practices
    Revised Progress Practices. On July 23, 1997, the Office of the Under
    Secretary of Defense (Comptroller) issued policy memorandum “Revised
    Progress Practices,” requiring that all progress payment distributions be based
    on best estimates of the specific work being performed under the contract using
    available information. Initially, on October 1, 1997, DoD personnel should
    begin distributing all progress payments to the obligations that fund the costs
    incurred during the period covered by each progress payment request.
    However, the July 23, 1997, policy memorandum was superseded by an
    August 7, 1998, policy memorandum titled “Progress Payment Distribution.”
    In this policy memorandum, the Under Secretary of Defense (Comptroller)
    directed that contracts (other than firm-fixed-price) with multiple types of funds
    required payment instructions because those contracts were subject to risk of
    improper allocation and disbursement of funds. The firm-fixed-price contracts
    were excluded because they are not normally subject to price changes or cost
    saving incentives and over the life of the contract, funds will be used up
    according to the costs incurred by the contractor.

    Defense Federal Acquisition Regulation Supplement Requirements. In
    addition to the revised progress payment policies announced by the Under
    Secretary of Defense (Comptroller), the DFARS provides complimentary

                                         4
    requirements for progress payment distribution instructions. Specifically,
    DFARS 204.7107 (e)(3) requires payment instructions for payments to
    contractors on progress payment contracts when contract items are funded by
    multiple ACRNs. For these contracts, DFARS 204.7107 (e)(3) requires that
    payment instructions provide a methodology for the paying office to assign
    payments to the appropriate ACRN, based on anticipated contract work
    performance. This policy applies to all types of payments, including progress
    payments.

Compliance with Revised Progress Payment Practices and
  DFARS Requirements
    The progress payment policy established by the Under Secretary of Defense
    (Comptroller) in August 1998, as amended, was not adequately implemented.
    In addition, the DFARS policy was not adequately implemented for contracts
    with progress payment clauses.

    Identifying Contracts Subject to Revised Comptroller Policy. To identify all
    contracts subject to the Comptroller and DFARS criteria for payment
    instructions, we obtained a MOCAS database extract of contracts issued from
    October 1, 1998, through August 31, 2000. Using the MOCAS extract, we
    identified 1,024 contracts authorizing progress payments valued at $9.9 billion.
    Of those 1,024 contracts, 190 contracts valued at $5.4 billion were fixed-price
    contracts with multiple appropriations that authorized progress payments. Table
    1 lists the progress payment contacts identified and those that are subject to the
    revised Comptroller policy.



        Table 1. Identifying Contracts Subject to Revised Comptroller Policy

                     Contract Population                       Number of Contracts
     Contracts Authorizing Progress Payments                           1,024
     Fixed-price Contracts with Multiple Appropriations                 190
     Contracts Subject to Revised Comptroller Policy                       9
     Contracts Where DCMA ACOs Did Not Comply                              6
     with Policy


    The MOCAS database showed that, of the 190 progress payment contracts, 6
    contracts totaling $456 million were fixed-price (other than firm-fixed-price),
    with multiple appropriations. ACOs were required to provide payment
    instructions to DFAS for those six contracts in accordance with the


                                        5
July 23, 1997, Under Secretary of Defense (Comptroller) policy, as amended on
August 7, 1998.

In addition to the six progress payment contracts identified in the MOCAS
database, during fieldwork at DCMA field offices we identified three additional
fixed-price (other than firm-fixed-price) contracts valued at $101.1 million that
also required payment instructions for DFAS. Two of the three contracts were
not identifiable in our MOCAS database extract because the system could not
identify more than one type of funding per contract and had identified the two
contracts as firm-fixed-price contracts. The other contract was not identified in
our universe of 190 contracts because MOCAS did not identify it as allowing
progress payments. As a result, we determined that nine multiple appropriation
progress payment contracts in MOCAS met the Comptroller policy. The nine
fixed-price (other than firm-fixed-price) contracts were valued at $557.6
million. For six of nine contracts that met the Comptroller criteria for payment
instructions, DCMA ACOs did not provide payment instructions to DFAS.

Identifying Contracts Subject to DFARS 204.7107 (e)(3). The MOCAS data
we reviewed showed that there were 182 firm-fixed-price multiple appropriation
progress payment contracts. We reviewed 161 of the 182 firm-fixed-price
multiple appropriation contracts to determine whether payment instructions were
required in accordance with DFARS 204.7107 (e)(3). The remaining 21
contracts were not readily available for our review. Of the 161 contracts, 138
contracts valued at $3.5 billion met the requirement for payment instructions.
Table 2 lists the contracts identified that are subject to the DFARS
requirements.


       Table 2. Identifying Contracts Subject to DFARS Requirements

                 Contract Population                       Number of Contracts
 Contracts Authorizing Progress Payments                          1,024
 Firm Fixed-price Contracts with Multiple                           182
 Appropriations
 Contracts Not Available for Review                                   21
 Contracts Not Subject to DFARS Requirement                           23
 Contracts Subject to DFARS Requirement                             138
 Contracts Where PCOs Did Not Comply with                             76
 Requirement


Of these 138 contracts, the procuring contracting officer (PCO) did not include
the required payment instructions on 76 contracts (55 percent) valued at


                                    6
    $899 million. For the other 62 contracts, contracting officers provided payment
    instructions to DFAS.

Providing Payment Instructions to DFAS
    Providing and Monitoring Payment Instruction by ACOs. For the six fixed-
    price (other than firm-fixed-price) contracts, payment instructions were not
    provided to DFAS because ACOs did not follow the DCMA One Book policy.
    In addition, ACOs were not always monitoring whether DFAS paid progress
    payments according to their specific payment instructions.

            Following DCMA Policy. The DCMA One Book, chapter 9, requires
    ACOs to provide DFAS written payment instructions for progress payments at
    the ACRN level for multiple appropriation fixed-price (other than firm-fixed-
    price) contracts. Although five of the six ACOs responsible for the nine sample
    contracts were aware of the DCMA One Book requirements, only three of the
    nine contracts included payment instructions for DFAS disbursement personnel
    to follow. The three ACOs stated that MOCAS proration may have been valid
    for the six contracts but they did not provide DFAS with instructions to prorate
    the progress payment. The ACOs were required to provide payment
    instructions to DFAS even when they determined that proration is the best
    method.

            Monitoring DFAS Payments. When the instructions were provided, the
    ACOs were not always monitoring whether DFAS properly paid progress
    payments in accordance with the payment instructions provided. Instead of
    following the payment instructions on these contracts, DFAS either prorated the
    progress payments or made a manual payment using a methodology that differed
    from what the ACO instructed. However, only one of three ACOs responsible
    for the contracts contacted DFAS to question the payments and make
    corrections. The two ACOs who did not monitor the DFAS payments
    subsequently planned to contact DFAS and make corrections after we identified
    that DFAS was prorating the progress payments.

    We believe that additional guidance is needed because chapter 9 of the DCMA
    One Book does not specifically require ACOs to monitor whether DFAS follows
    their progress payment instructions. A process for ACOs to monitor whether
    DFAS pays according to instructions would ensure that DFAS is aware of
    contracts that include instructions and that the instructions are followed.

    PCO Payment Instructions. Payment instructions on firm-fixed-price
    contracts were not provided to DFAS because PCOs were either unaware of the
    DFARS policy or did not apply it to all progress payment contracts. Only 62 of
    the 138 contracts we reviewed included payment instructions for DFAS. We
    contacted 8 PCOs responsible for 8 of the 76 contracts that did not include
    payment instructions but should have. Seven of the eight PCOs that we spoke
    with stated that they were not specifically aware of the payment instruction
    requirements of DFARS 204.7107(e)(3). One PCO that we spoke with was
    aware of the DFARS clause but did not believe that it was applicable to the
    sample contract because the PCO did not believe that the contractor would be
                                        7
    requesting progress payments. However, we determined that the contract
    contained multiple appropriations, met the requirements of
    DFARS 204.7107(e)(3), and progress payments were made by DFAS for this
    contract. Therefore, this contract should have included payment instructions.

    We also contacted three PCOs responsible for contracts that included payment
    instructions. We determined that none of the three PCOs included the payment
    instructions to comply with DFARS 204.7107(e)(3). The PCOs stated that
    payment instructions were included as a normal business practice or as an
    administrative convenience, such as “pay oldest funds first,” and not as an
    attempt to match contractor costs with DoD funds.

    The intent of the policy is to ensure that progress payment distributions are
    based on the best estimation of the specific work being performed under the
    contract rather than the customary proration of payments across all available
    lines of accounting. In most instances, progress payments on the
    76 firm-fixed-price contracts without instructions were and will continue to be
    prorated without any attempt to properly match the contractor costs or progress
    to the DoD appropriations financing the contract. Therefore, the intent of
    DFARS 204.7107(e)(3) was not met for these contracts.

Matching Costs and Progress Payments
    The objective of the revised progress payment practices and the DFARS policy
    was not achieved. The policies were established to ensure that progress
    payments would be based on the actual work performed or costs incurred during
    the period covered by the payment request. However, payment instructions for
    estimated progress payments on 6 fixed-price (other than firm-fixed-price)
    contracts (valued at $241.3 million) and 76 firm-fixed-price contracts (valued at
    $674.3 million) that met the DFARS criteria for payment instructions were not
    provided so that work performed or costs incurred could be matched to the DoD
    appropriations funding the contract. The objective was not achieved because
    progress payments were made from all appropriations funding the contract item
    regardless of the type of work performed by the contractor.

    In July 1997, the Under Secretary of Defense (Comptroller) expressed concerns
    that an attempt to match contractor costs with the appropriations corresponding
    to the type of work accomplished was frequently not being performed. The
    intent of DFARS 204.7107 (e)(3) is to pay contractors in a manner that reflects
    the performance of work being done on the contract. In addition, using
    appropriations only as intended is a basic requirement of 31 U.S.C. 1301(a).
    The Code requires that appropriations be applied only to the items for which
    they were intended, unless otherwise provided by law. Accordingly, the Under
    Secretary of Defense (Comptroller) directed a change in DoD policy that
    recognized the MOCAS proration methodology, which is based on the weighted
    average of obligated dollars, may not always fairly represent the work progress
    actually made by the contractor.

    Matching Appropriations and Contractor Performance. During the audit,
    we identified an example in which the progress payments did not match the
                                        8
    work performed by the contractor. Specifically, on Contract No. F33657-99-D-
    0028 for the Air Force B-2 aircraft program, two delivery orders were placed
    that were valued at $40.4 million and were intended for labor needed for
    product support. Product support is recurring labor that is required to support
    the B-2 post-production program and is not clearly identifiable to an end
    product. Product support includes recurring effort associated with
    Configuration Management, Data Management, Change Management, Test
    Operations (Planning Only), and Administration. The contractor was paid a
    total of $3.5 million in six progress payments. The delivery orders contain
    multiple ACRNs and include Research, Development, Test and Evaluation;
    Operation and Maintenance; and Procurement appropriations.

    The ACO provided us the contractor’s supporting cost data for the progress
    payments. The cost data indicated that all of the costs incurred by the
    contractor were engineering, overhead, and data processing. Therefore,
    prorating the progress payments to all available appropriations would not have
    been appropriate for these progress payments. For those payments, the type of
    work performed by the contractor is depot maintenance related activities. Depot
    maintenance work is normally funded through Operations and Maintenance
    appropriations and not Research and Development or Procurement funds.

    Payment instructions were not written for this contract although they were
    required as a result of the revised progress payment policy memorandums and
    the DCMA One Book requirements. Written payment instructions would have
    prevented the potential mismatch between the use of appropriations and work
    performed by the DoD contractor because an attempt to match the proper funds
    with the work performed over a specific period of time would have been made.

Management Comments on the Finding
    DCMA Comments. The Deputy Director, DCMA, partially concurred with
    the finding and stated that the One Book will be revised to specify that the ACO
    will document which progress payment distribution method is appropriate,
    including proration. In addition, the Deputy Director stated that a training
    package is in development that will provide ACOs with the necessary
    information to determine when payment instructions are required and the
    appropriate method for developing them and providing them to DFAS.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense (Acquisition,
    Technology, and Logistics) direct contracting officers to include payment
    instructions in Section G of contracts that meet the requirements of Defense
    Federal Acquisition Regulation Supplement 204.7107 (e)(3), including the
    76 contracts identified by the audit shown in Appendix B.



                                        9
Management Comments. The Office of the Under Secretary of Defense
(Acquisition Technology &Logistics) concurred with the recommendation and
stated that the Director, Defense Procurement, will send a memorandum within
60 days of issuance of the final report to the DoD contracting community
addressing the importance of providing payment instructions that fulfill the
DFARS 204.7107 (e)(3) requirements. Specifically, the memorandum will
require that instructions be provided for the 76 contracts identified in Appendix
B, as well as for any additional contracts that meet the criteria identified in
DFAS 204.7107 (e)(3). In addition, the Defense Procurement Home Page will
post an information item identifying this subject as a topic requiring the attention
of the DoD contracting community.

A.2. We recommend that the Director, Defense Contract Management
Agency:
      a. Direct administrative contracting officers to provide payment
instructions to the Defense Finance and Accounting Service on all contracts
meeting the requirements of the revised Comptroller progress payment
policy.

Management Comments. The Deputy Director partially concurred and stated
that ACOs will be directed to comply with Chapter 9 of the One Book and with
planned revisions to the One Book.

     b. Initiate action to develop payment instructions for the 76 firm-
fixed-price contracts identified by the audit shown in Appendix B.

Management Comments. The Deputy Director, DCMA, concurred and stated
that PCOs will be notified that payment instructions must be provided in
accordance with DFARS 204.7107(e)(3).

    c. Revise Defense Contract Management Agency Directive 1, the One
Book, to include a requirement that administrative contracting officers
monitor whether the Defense Finance and Accounting Service pays progress
payments according to the payment instructions provided.

Management Comments. The Deputy Director, DCMA, nonconcurred and
stated that although providing progress payment distribution instructions is an
ACO responsibility, it is the responsibility of DFAS to apply those instructions
when making progress payments. The Deputy Director did not believe that it
would be appropriate for DCMA to act in such an oversight role.

Audit Response. We consider the Deputy Director’s comment to be
nonresponsive. While we agree that making progress payments is a DFAS
responsibility, manual progress payment disbursements have an increased risk of
error and therefore additional controls over accuracy are warranted. In
addition, relatively few DCMA administered contracts include progress payment
instructions. We do not consider the oversight an undue burden on the ACO’s
and believe it is warranted. We request that the Deputy Director reconsider his
comments and provide additional comments to the final report.

                                    10
      d. Establish a tracking system and performance metric that maintains
updated information on all contracts that may require payment
instructions, shows how many contracts include payment instructions, and
shows whether the Defense Finance and Accounting Service makes
payments according to the instructions.

Management Comments. The Deputy Director, DCMA, nonconcurred and
stated that it would be inappropriate to establish a tracking system and
performance metric for monitoring progress payment distribution instructions
because:

   •   the number of contracts covered by the Under Secretary of Defense
       (Comptroller) revised progress payment policy is very small;
   •   since PCOs are responsible for complying with DFARS 204.7107(e)(3),
       it would not be an appropriate function for DCMA to monitor;

   •   monitoring the degree to which DFAS pays according to payment
       instructions is the responsibility of DFAS, and would not be an
       appropriate function for DCMA; and

   •   duplicating controls that should already be in place would not be cost
       effective.

Audit Response. We consider the Deputy Director’s comments to be non-
responsive. The DCMA controls over providing required payment instructions
to DFAS, monitoring whether payment instructions were properly input into
MOCAS, and monitoring whether DFAS followed the payment instructions,
were not adequate. Therefore, additional oversight is needed. In addition, the
progress payment contracts that require distribution instructions have not been
fully identified and DCMA ACOs are in the best position to monitor
implementation of DoD policies that require progress payment distribution
instructions. We request that the Deputy Director reconsider his comments and
provide additional comments to the final report.




                                   11
            B. Following Progress Payment
               Instructions
            For the three fixed-price (other than firm-fixed-price) and four firm-fixed-
            price contracts that contained payment instructions, DFAS did not always
            properly follow the payment instructions provided by the contracting
            officers. DFAS did not pay according to payment instructions for the
            seven contracts because the instructions were either not properly entered
            into MOCAS, not verified by the ACO, not followed, or MOCAS controls
            were not adequate. As a result, approximately $39.7 million in progress
            payment disbursements related to the seven contracts were either
            inappropriately prorated from multiple appropriations or paid using a
            different payment methodology from those specifically directed by
            contracting officers.

DFAS Progress Payment Disbursement Process
     Progress payments are automatically prorated by the MOCAS system unless the
     contracting officer provides written payment instructions either in section G,
     “Contract Administration Data” of the contract, in special MOCAS files, or
     other written forms. Written payment instructions are provided to prevent
     progress payments from being automatically prorated.

     Progress payments that are prevented from being paid automatically are
     forwarded to a voucher examiner for manual payment. Payment instructions are
     input into MOCAS data elements that prevent the system from automatically
     prorating the payment. Those data elements include fields such as “Auditor
     Approval” and “Progress Payment Special Pay Instructions.” When a voucher
     examiner receives the rejected progress payment because there are payment
     instructions, the voucher examiner is required to process the disbursement
     according to the payment instructions.

Identifying Contracts with Payment Instructions
     Improvements in the progress payment process at DFAS Columbus were needed
     because DFAS did not adequately identify contracts with progress payment
     clauses that included special payment instructions provided by contracting
     officers. We identified three fixed-price (other than firm-fixed-price) and
     four firm-fixed-price contracts with progress payment clauses where either the
     ACO or PCO provided payment instructions to DFAS. We reviewed
     63 progress payments made on those 7 contracts, and determined that DFAS did
     not follow the payment instructions on 20 of the progress payments. The
     20 progress payments were for work performed on the 7 contracts with payment
     instructions. For the 43 progress payments in which DFAS paid properly, the
     instructions provided were primarily to use normal MOCAS proration or were
     not relevant because only 1 ACRN and appropriation had been assigned at that


                                         12
    stage of the contract. Therefore, for these progress payments, the chance of not
    following the payment instructions would be minimal.

Payment Instructions and MOCAS Controls
    Payment instructions provided by ACOs and PCOs were not followed because
    DFAS Columbus personnel did not input the payment instructions accurately or
    promptly. ACOs did not verify that the MOCAS payment instructions had been
    entered, DFAS personnel did not always follow the payment instructions
    provided, and MOCAS controls for preventing automatic payments on contracts
    with instructions were not adequate. Twice, a DFAS employee incorrectly
    coded the payment instructions input into MOCAS. On two other occasions, the
    payment instructions were not entered into MOCAS. In addition, a modification
    was not input into MOCAS in a timely manner. DFAS personnel also
    mistakenly overlooked the payment instructions that were coded into MOCAS
    when manually paying the progress payments. In other instances, MOCAS did
    not alert payment personnel that payment instructions were included in MOCAS
    contract files. As a result of those weaknesses, payments were not made in
    accordance with the contracting officer’s payment instructions.

    Inputting Payment Instructions. Payment instructions were not followed
    because DFAS employees mistakenly coded the payment instructions input into
    MOCAS on two contracts. In one of the two contracts in which payment
    instructions were mistakenly coded, a DFAS employee input payment
    instructions into a field unrelated to progress payments instead of the “Progress
    Payment Special Pay Instructions” field. The “Progress Payment Special Pay
    Instructions” field is designed to stop any progress payment request from being
    paid automatically (prorated). The progress payments were not prorated
    because manual processing was required due to other reasons unrelated to
    payment instructions. Although the progress payments were paid manually, the
    voucher examiner was not aware of the payment instructions because they were
    not present in the proper field. The improper input of the payment instructions
    resulted in four progress payments (totaling $24.5 million) not being paid
    according to the PCO instructions.

    On another contract with payment instructions provided by the PCO, DFAS
    personnel mistakenly entered payment instructions into the “Special Pay
    Instruction” field instead of the “Progress Payment Special Pay Instructions”
    field. DFAS personnel were not aware that the instructions were for the
    distribution of progress payments because the wording was unclear. This
    mistake resulted in one progress payment totaling $220,000 not being paid
    according to the intent of the PCO instructions.

    In two other contracts with payment instructions provided by the PCO, DFAS
    personnel inadvertently did not enter the payment instructions into MOCAS.
    The instructions should have been entered into the “Progress Payment Special
    Pay Instructions” field. As a result of the error, five progress payments totaling
    $4.4 million were inappropriately prorated instead of paid according to the PCO
    instructions.

                                        13
Timing. Payment instructions were also not followed because a contract
modification was not entered into MOCAS until 4 months after the effective
date of the modification. The contract modification added a new appropriation
and payment instructions to pay on the new appropriation before any other.
Two progress payments totaling $550,000 were paid after the effective date of
the modification but prior to the input date. Therefore, the payment instructions
provided by the PCO were not followed because the new appropriation was not
used to pay the progress payment.

ACO Verification. Payment instructions were also not followed because ACOs
did not verify that instructions were properly entered into MOCAS. The
DCMA One Book requires the ACO to verify that any payment instructions the
PCO has included in the contract have been entered into MOCAS. In all
four contracts that had payment instructions written into the contract by the
PCO, the ACO did not verify that the instructions had been entered into
MOCAS accurately or timely. If the ACOs had verified that the payment
instructions were entered into MOCAS, they would have discovered that the
instructions were miscoded in two contracts and not entered at all in two others.
They would have also discovered a modification with payment instructions was
not entered until 4 months after the effective date it was issued.

Manual Progress Payments. Payment instructions were not followed because
DFAS employees mistakenly overlooked progress payment instructions when
making manual progress payments. On five progress payments totaling
approximately $3.0 million, MOCAS correctly rejected the progress payment
for automatic payment. However, DFAS personnel did not follow the payment
instructions for those progress payments. DFAS personnel either improperly
paid from only one ACRN or prorated the disbursement using an incorrect
percentage. When we asked DFAS disbursement personnel about this, they
agreed that the payment instructions were simply not followed.

MOCAS Controls. Controls over progress payments with written payment
instructions that were properly input into MOCAS needed improvement because
DFAS disbursement employees were not always aware that payment instructions
were provided and input into MOCAS. For example, in one contract in which
payment instructions were entered into the ACO Notebook by the ACO,
MOCAS controls did not prevent an automatic progress payment totaling
$4.0 million from occurring. The ACO Notebook provides a place in which
ACOs can enter payment instructions for DFAS. The ACO who entered the
instructions in the notebook believed that DFAS personnel always check the
ACO Notebook before payment. However, DFAS personnel never see the
ACO Notebook when progress payments are paid automatically and there is no
MOCAS control to ensure that this field is in place.

On two other progress payments totaling $3.0 million, payment instructions
were entered on the progress payment invoice and possibly into the “Progress
Payment Special Pay Instructions” field of MOCAS at the time of disbursement.
However, MOCAS did not prevent the payments from being prorated so that the
disbursements could be made in accordance with DoD policies. For those
payments, the “Progress Payment Special Pay Instructions” field indicated that
payment instructions were present at the time of our audit. However, we could
                                   14
    not determine whether the payment instructions were input after the two
    progress payments were inappropriately made because the date the field was
    coded was not available.

    MOCAS is scheduled to be replaced by the Defense Procurement Payment
    System beginning in the summer of 2001. Because it is inadvisable to make a
    MOCAS system change, we questioned DFAS payment personnel about how to
    ensure that progress payments with instructions would be paid manually. DFAS
    employees stated that there is a field in MOCAS titled “Auditor Approval” that,
    when properly coded, will prevent an automatic payment on any invoice.
    DFAS disbursement personnel believed that if DCMA provided them a list of
    applicable contracts with payment instructions (other than proration) they could
    enter a code in the “Auditor Approval” field to prevent the progress payment
    from being automatically prorated. The code would require that the progress
    payment be paid manually by a voucher examiner.

    We also contacted the program office for the Defense Procurement Payment
    System to determine how payment instructions for progress payments will be
    included in the new system. A representative in the program office stated that
    payment instructions on progress payments would have to be performed
    manually in the new system. The new system will have fields similar to
    MOCAS that are designed to trigger a manual payment when necessary.

Prorating Progress Payments
    Twenty progress payments from the seven contracts valued at approximately
    $39.7 million were either inappropriately prorated from multiple appropriations
    or paid using a different payment methodology from those specifically directed
    by contracting officers. Contracting officers include payment instructions in
    contracts so that contractor costs are matched with the appropriation that should
    fund the work progress and to prevent obligated funds from expiring before
    disbursement. Using appropriations only for their intended purpose is a basic
    requirement of 31 U.S.C. 1301(a). The Code requires that appropriations be
    applied only to the items for which they were intended, unless otherwise
    provided by law.

    The Office of the Under Secretary of Defense (Comptroller) has expressed
    concerns that a reasonable attempt to match contractor costs with the proper
    appropriation may not always occur when progress payments are automatically
    prorated by MOCAS. For some high-dollar DoD contracts, when
    appropriations are not matched to costs, a risk exists that appropriations will be
    disbursed for contractor work unrelated to the intended use of the funds.
    Therefore, DoD policy requires that a reasonable attempt to match contractor
    cost with the proper DoD funds be performed on many complex contracts that
    authorize progress payments.

    DFAS, in conjunction with DCMA, has been tasked to ensure that
    appropriations are used only for their intended purpose. The policy
    requirements of the DCMA One Book and DFARS 204.7107 are designed to
    prevent the actual or apparent misuse of appropriations by DoD when making
                                        15
    progress payments. DFAS was required to implement the payment instructions
    provided by contracting officers. For several contracts, DFAS erroneously
    entered payment instructions into MOCAS or made progress payments without
    following the instructions provided by a contracting officer. For other
    contracts, MOCAS did not alert payment personnel that payment instructions
    were present even though the payment instructions were entered into MOCAS
    properly. Therefore, improvements are needed so that progress payments are
    made in accordance with DoD and Federal requirements.

Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Director, DCMA, partially concurred
    and stated that payments were not made according to instructions because
    payment instructions were either not properly input into MOCAS or were not
    followed by the payment office. He did not concur that the lack of verification
    by the ACO that the payment instructions were input correctly was a direct
    cause of incorrect payments or that MOCAS controls are inadequate. He stated
    that the ACO plays a secondary role in verifying that payment instructions are
    input correctly and therefore not performing this function would only indirectly
    contribute to the payment office not following payment instructions. He further
    stated that DCMA will develop training that will reinforce payment instruction
    guidance and will investigate MOCAS control problems if evidence develops
    that a malfunction exists.

    Audit Response. Although the Deputy Director partially concurred with the
    finding, we consider his comments to be fully responsive.

    DCMA Comments. The Deputy Director nonconcurred that a material
    management control weakness exists with respect to verifying whether payment
    instructions have been input into MOCAS properly. The Deputy Director
    explained that DFAS has responsibility for paying according to payment
    instructions contained in the contract. He stated that DCMA will provide
    training to ACOs on the process for entering payment instructions and for
    verifying that payment instructions entered by DFAS are entered properly.

    Audit Response. Although the Deputy Director nonconcurred that a material
    management control weakness existed, we consider his comments to be fully
    responsive and no further comments are required.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Director, Defense Contract Management
    Agency:

           a. Identify all progress payment contracts that include payment
    instructions to the Defense Finance and Accounting Service Columbus.


                                       16
            b. Direct administrative contracting officers to follow Defense
    Contract Management Agency “One Book” policy and verify the accuracy
    of instructions and that the “Progress Payment Special Pay Instructions”
    field in Mechanization of Contract Administration Services is properly
    coded, when instructions are present.

           c. Direct responsible administrative contracting officers to
    coordinate with the Defense Finance and Accounting Service Columbus to
    review progress payments made for instances in which payment instructions
    were not followed and make the necessary corrections for the following
    seven contracts: F0470100C0500, F0470199C0047, F1962800C0023,
    F3365799C3045, F3365799G39000004, F3365799G39000024, and
    N0003099C0008.
    Management Comments. The Deputy Director, DCMA, concurred with
    Recommendations B.1.b. and B.1.c. and stated that DCMA will direct ACOs to
    follow One Book policy and verify the accuracy of payment instructions. In
    addition, the Deputy Director stated that DCMA will direct the ACOs to
    properly code MOCAS when instructions are present and to coordinate with
    DFAS to make necessary corrections to the seven contracts. The Deputy
    Director nonconcurred with Recommendation B.1.a. to identify all contracts that
    include progress payment distribution instructions and stated that this function
    was a DFAS responsibility.

    Audit Response. We consider the Deputy Director’s comments to
    Recommendation B.1.a. to be nonresponsive. ACOs have the best visibility
    over all contracts that may require progress payment distribution instructions
    and could provide this information to DFAS with a minimal amount of effort.
    In addition, ACOs are required by DCMA policy to verify that payment
    instructions have been input by DFAS correctly. Therefore, we believe ACOs
    should have the contract familiarity to perform this function. We request that
    the Deputy Director reconsider his comments and provide comments to the final
    report.

    B.2. We recommend that the Director, Defense Finance and Accounting
    Service, make the necessary entries into Mechanization of Contract
    Administration Services and the Defense Procurement Payment System, as
    it is phased in, to ensure that contracts with payment instructions for
    progress payments are paid according to instructions provided.

Management Comments Required
    The Director, DFAS, did not comment on a draft of this report. We request
    that the Director provide comments on the final report.




                                       17
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the revised progress payment practices policy
    and subsequent revisions announced by the Under Secretary of Defense during
    calendar years 1997 and 1998. On July 23, 1997, the Under Secretary of
    Defense issued a policy memorandum requiring that all progress payment
    distributions be based on the best estimate of the specific work being performed
    under the contract using available information. The policy was subsequently
    revised to exclude firm-fixed-price contracts and all contracts awarded prior to
    September 1, 1998. To test for compliance, DFAS Columbus provided a
    MOCAS database extract of contracts with financing payments that were
    awarded between October 1, 1998, and August 31, 2000. The database extract
    included fields for progress payments and contract type. Using the MOCAS
    extract, we identified 1,024 contracts authorizing progress payments valued at
    $9.9 billion. Of those 1,024 contracts, 190 contracts valued at $5.4 billion were
    fixed-price contracts with multiple appropriations that authorized progress
    payments.

    From this universe of 190 contracts, we identified six fixed-price (other than
    firm-fixed-price) MOCAS contracts with multiple appropriations that required
    payment instructions for the payment office. We identified three additional
    progress payment contracts during audit fieldwork that also met the revised
    policy criteria. The total value of the portions of the nine contracts that were
    fixed-price contracts was $557.6 million.

    In addition, we reviewed 161 of the 182 firm-fixed-price multiple appropriation
    contracts identified in the MOCAS database for compliance with DFARS
    204.7107 (e)(3). Of the 182 contracts, we were unable to determine whether 21
    contracts fit the criteria of requiring payment instructions. Of the 161 contracts,
    we determined that 138 required payment instructions. Of the 138 contracts, 62
    contained payment instructions and 76 did not. Out of the 62 contracts that had
    payment instructions, we reviewed 4 to determine whether DFAS paid in
    accordance with the instructions. For these 62 contracts, we did not test the
    adequacy of the payment instructions provided with respect to matching
    contractor costs with DoD funds at the time of disbursement. We examined the
    progress payment distribution instructions in the contracts and on progress
    payment invoices, questioned ACOs and PCOs about the rationale of the
    payment instructions and any potential positive or negative effects, and
    compared the payment instructions to the progress payment distributions by
    DFAS.

    Limitations to Scope. The MOCAS system accepts only one contract type for
    each contract in the system even though there can be multiple contract types on

                                        18
a single contract. For example, a contract can have cost, firm-fixed-price, and
other than firm-fixed-price contracts on individual contract line items. As a
result of this MOCAS system limitation, we could not verify the completeness
of the different contract types identified in MOCAS as other than firm-fixed-
price. Defense Procurement Payment System does not currently have any plans
to record multiple contract types within a single contract. In addition, 21 of 182
firm-fixed-price contracts were not readily available for review. Therefore, we
did not include any results from those contracts in our report.

DoD-Wide Corporate Level Government Performance and Results Act
Coverage. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal and subordinate performance goal.
       •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
           uncertain future by pursuing a focused modernization effort that
           maintains U.S. qualitative superiority in key warfighting capabilities.
           Transform the force by exploiting the Revolution in Military Affairs,
           and reengineer the Department to achieve a 21st century
           infrastructure. (01-DoD-02)

       •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
           financial and information management. (01-DoD-2.5)

DoD Functional Area Reform Goal. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objective and
goal.

       • Financial Management Area. Objective: Strengthen internal
         controls. Goal: Improve compliance with the Federal Managers’
         Financial Integrity Act. (FM-5.3)

General Accounting Office High Risk Areas. The General Accounting Office
has identified several high risk areas in the DoD. This report provides coverage
of the Defense Contract Management and Defense Financial Management high-
risk areas

Computer-Processed Data. We used a MOCAS contract database that
contained all contracts awarded between October 1, 1998, and August 31, 2000,
that DFAS defined as having financing provisions. We relied on the computer-
processed data to determine our contract sample without performing tests of
system general and application controls to confirm the reliability of the data.
We also used Electronic Data Access and Electronic Data Management records
to review the contract data. We did not establish reliability of the data because
it would have required audit resources that are not available. However, not
establishing the reliability of the computer-processed data did not materially
affect the results of our audit because we reviewed paper copies or scanned
images of contract information.

                                    19
    Audit Type, Date, and Standards. We performed this economy and efficiency
    audit from August 2000 through May 2001 in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40 “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed
    DCMA and DFAS management’s self-evaluation of controls over the
    administration and disbursement of progress payments requiring distribution
    instructions.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DoD, as defined in DoD Instruction 5010.40. DCMA
    management controls were not adequate to ensure that progress payment
    instructions were provided or monitored when required. DFAS management
    controls were not adequate to ensure that progress payment instructions were
    followed when making progress payments. Recommendations A.1., A.2., B.1.,
    and B.2., if implemented, will correct the weaknesses. A copy of the report
    will be provided to the senior official within DCMA and DFAS responsible for
    management controls.

    Adequacy of Management’s Self Evaluation. Management’s self-evaluation
    was not adequate. DCMA and DFAS identified contract payments as assessable
    units; however, they did not report the material management control weaknesses
    identified during the audit.

    DCMA Comments. The Deputy Director nonconcurred that the findings
    represent a material management control weakness. The Deputy Director stated
    that DCMA has policies in place to manage preparation of distribution
    instructions for progress payment contracts and for monitoring input of the
    instructions into MOCAS. He stated that DCMA has a process in place to apply
    those policies and also has an oversight process to reinforce their application.
    He reiterated that the One Book will be clarified concerning progress payment
    instructions and that a training package for ACOs will also be developed.



                                       20
    Audit Response. The Deputy Director’s comments to the recommendations
    should correct the materiel management control weakness.

Prior Coverage
    The General Accounting Office, and the Inspector General, DoD, have
    conducted multiple reviews related to contract payments.

    General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov.

    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.




                                       21
Appendix B. Firm-Fixed-Price Contracts
            Requiring Payment Instructions by
            DFARS 204.7107
 Army - 28 Contracts   Air Force - 23 Contracts     Navy - 25 Contracts
DAAA0900C0010          F0863099C0071              N0001999D10160001
DAAA0999C0020          F0863099C0092              N0002400C5141
DAAA0999C0025          F0863599C0028              N0002400C5223
DAAA0999C0040          F0960300C0160              N0002499C4046
DAAA0999C0066          F0960399C0076              N0002499C5214
DAAA0999C0067          F0960399C0154              N0010400CK002
DAAA0999D00120001      F0960399D02580001          N0010400CK017
DAAA0999D00120010      F0960499C0123              N0010400CK037
DAAB0799CD285          F1962899D06050001          N0010400CK076
DAAB0799CH004          F3365799G30390001          N0010400CK086
DAAB0799CJ558          F3365799G30520001          N0010499CK009
DAAB0799CJ559          F4160800C0068              N0010499CK010
DAAB0799DB6050001      F4160899C0378              N0010499CK020
DAAB0799DD7700001      F4160899C0521              N0010499CK092
DAAE0700CM004          F4160899D05830001          N0010499CK101
DAAE0799CN049          F4162400D11050001          N0010499CK102
DAAE0799CT046          F4261099C0015              N0010499CK106
DAAE0799DT0460001      F4262099C0083              N0010499CK120
DAAE2000D00240001      F4262099C0102              N0016400D00100001
DAAH0100C0033          F4263099C0162              N0016499C0012
DAAH0100C0039          F4263099C0185              N0016499C0027
DAAH0100C0044          F4263099C0203              N0016499D00230002
DAAH0199C0031          F4263099C0256              N0016499D00290003
DAAH0199C0050                                     N0017899C1027
DAAH0199C0126                                     N0038399CD016
DAAH0199C0171
DAAH2300C0048
DAAH2399C0238




                              22
Appendix C. Firm-Fixed-Price Contracts With
            Payment Instructions
  Army - 1 Contract    Air Force - 36 Contracts     Navy - 25 Contracts
DAAE0799CM011         F0470100C0500               N0001900C0268
                      F0470100C0501               N0001999C1014
                      F0470199C0047               N0001999C1051
                      F0470199C0048               N0001999C1054
                      F0862699C0248               N0001999C1090
                      F0862699C0251               N0001999C1131
                      F0863000C0009               N0001999C1274
                      F0863099C0010               N0001999C1331
                      F0863099C0011               N0001999C1561
                      F0863099C0012               N0002499C4059
                      F0863099C0016               N0002499C5116
                      F0863099C0018               N0002499C5373
                      F0863099C0020               N0002499C5374
                      F0863099C0052               N0002499C5377
                      F0863099C0088               N0003000C0016
                      F0863500C0032               N0003900D21000001
                      F0863599C0001               N0003900D21010001
                      F0863599C0035               N0016499D00080004
                      F0863599C0056               N6133999C0084
                      F0863599C0118               N6339400C4001
                      F0960399C0153               N6523699C5038
                      F0960399D02580002           N6660499C0373
                      F1962899C0024               N6660499C1187
                      F1962899C0036               N6833599C0007
                      F2960199C0167               N6833599C0167
                      F3060299C0011
                      F3361599C3202
                      F3365799C2040
                      F3365799C3056
                      F3365799D20410001
                      F3365799G39000004
                      F3365799G39000024
                      F3460199C0096
                      F4160899C0183
                      F4160899C0367
                      F4262099C0116


                               23
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member

    Senate Committee on Appropriations
    Senate Subcommittee on Defense, Committee on Appropriations
    Senate Committee on Armed Services
    Senate Committee on Governmental Affairs
    House Committee on Appropriations
    House Subcommittee on Defense, Committee on Appropriations
    House Committee on Armed Services
    House Committee on Government Reform
    House Subcommittee on Government Efficiency, Financial Management, and
       Intergovernmental Relations, Committee on Government Reform
    House Subcommittee on National Security, Veterans Affairs, and International
       Relations, Committee on Government Reform
    House Subcommittee on Technology and Procurement Policy, Committee on
       Government Reform




                                      25
Under Secretary of Defense (Acquisition,
Technology, and Logistics) Comments




                    27
28
29
Defense Contract Management Agency
Comments




                 30
     Final Report
      Reference




     Deleted




     Revised




31
32
33
34
35
36
37
38
39
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Ted R. Paulson
Mark Starinsky
James C. Darrough
Lisa S. Sherck
Karen M. Bennett
Lisa C. Rose-Pressley
